                                                                                Report No. DODIG-2014-042




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              F E B RUA RY 2 8 , 2 0 1 4




                     Naval Facilities Engineering
                     Command Washington Properly
                     Awarded Task Orders for Services




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Naval Facilities Engineering Command Washington
                                       Properly Awarded Task Orders for Services


February 28, 2014                                     Finding Continued

Objective                                             $14.1 million, of 25 modifications reviewed, valued at $15.1 million.
                                                      However, the contracting officials did not adequately support
Our audit objective was to determine whether          their price reasonableness determinations for two modifications,
the Naval Facilities Engineering Command              valued at $1 million. Those two instances were isolated and did
(NAVFAC) Washington properly awarded task             not constitute a systemic problem. Therefore, we are not making
orders under multiple award contracts for             any recommendations.
services. Specifically, we determined whether
NAVFAC     Washington     contracting officials
provided contractors a fair opportunity to            Management Comments
compete, adequately supported determinations          We provided a discussion draft of this report on February 3, 2014.
of price reasonableness in accordance with            No written response to this report was required, and none was
Federal and DoD policies, and used appropriate        received. Therefore, we are publishing this report in final form.
funding.


Finding
NAVFAC      Washington     contracting   officials
properly awarded the 33 task orders reviewed,
valued at $305.6 million, from two separate
multiple award contracts. For the 33 task orders,
the contracting officials:

   •	 provided each contractor on the multiple
      award contract a fair opportunity to be
      considered for each task order awarded,

   •	 adequately supported price reasonableness
      determinations on all task orders reviewed,
      and

   •	 used proper funding.

In addition, NAVFAC Washington contracting
officials generally supported price reasonableness
determinations for 23 modifications, valued at




Visit us on the web at www.dodig.mil


                                                                           DODIG-2014-042 (Project No. D2013-D000CF-0141.000)│ i
                  Recommendations Table
                                                                                            Recommendations
                                                     Management                             Requiring Comment
                    Under Secretary of Defense for Acquisition, Technology, and Logistics   None
                    Naval Inspector General                                                 None




ii │ DODIG-2014-042 (Project No. D2013-D000CF-0141.000)
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500


                                                                              February 28, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY,
                 AND LOGISTICS
               NAVAL INSPECTOR GENERAL

SUBJECT: Naval Facilities Engineering Command Washington Properly Awarded Task Orders
         for Services (Report No. DODIG-2014-042)

We are providing this report for information and use. Naval Facilities Engineering Command
Washington contracting officials properly awarded 33 task orders, valued at $3 05.6 million.
No written response to this rep ort was required, and none was received.

We appreciate the courtesies extended     to    the staff.   Please direct questions to me at
(703) 604-8905 (DSN 664-8905).



                                         ~£if  Principal Assistant Inspector General
                                                  for Auditing




                                                                                          DODIG-2014-04·2   I iii
Contents
Introduction
Objectives_________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Naval Facilities Engineering Command Washington__________________________________________1
Large and Small Multiple Award Contracts____________________________________________________2
Review of Internal Controls_____________________________________________________________________2

Finding. Task Orders Properly Awarded____________________________3
Contracting Officers Provided Fair Opportunity to Contractors_____________________________3
Price Reasonableness Determinations Were Supported______________________________________4
Task Orders Properly Funded___________________________________________________________________4
Price Reasonableness Determinations Generally Supported on
Modifications Reviewed_________________________________________________________________________5

Appendixes
Appendix A. Scope and Methodology__________________________________________________________7
    Use of Computer-Processed Data _________________________________________________________9
    Use of Technical Assistance_________________________________________________________________9
Appendix B. Prior Coverage__________________________________________________________________ 10
Appendix C. Task Orders Reviewed__________________________________________________________ 12
Appendix D. Modifications Reviewed________________________________________________________ 15

Acronyms and Abbreviations______________________________________________ 16




                                                                                                       DODIG-2014-042 │ v
                                                                                          Introduction




Introduction
Objectives
Our audit objective was to determine whether Naval Facilities Engineering Command
(NAVFAC) Washington contracting officials properly awarded task orders under multiple
award contracts (MACs) for services. Specifically, we determined whether NAVFAC
Washington contracting officials provided contractors a fair opportunity to compete and
adequately supported determinations of price reasonableness in accordance with Federal
and DoD policies. After the start of the audit, we expanded the objective to include a
review of funding. In addition, we determined whether NAVFAC Washington contracting
officials adequately supported price reasonableness determinations for modifications
to the task orders. See Appendix A for a discussion of the scope and methodology and
Appendix B for prior coverage related to the objectives.


Background
Multiple award contracting allows the Government to procure goods and services using
streamlined acquisition procedures while obtaining the advantage of competition.
Task order and delivery order MACs represent a pool of indefinite-delivery, indefinite-
quantity contracts used by DoD customers to obtain goods and services. Specifically,
contracting officers must provide all contractors in the pool a fair opportunity to
compete for award of a task order. Federal Acquisition Regulation (FAR) Subpart 16.5,
“Indefinite-Delivery Contracts,” establishes a preference for making multiple awards
of indefinite-quantity contracts under a single solicitation for the same or similar
supplies or services to two or more sources.


Naval Facilities Engineering Command Washington
NAVFAC Washington manages the planning, design, and construction of shore facilities
for the U.S. Navy, U.S. Marine Corps, and other Federal agencies in the District of
Columbia, Maryland, and Northern Virginia. NAVFAC Washington headquarters is at
the Washington Navy Yard in Washington, D.C.

NAVFAC Washington serves its supported commands through several field offices.
These offices include the Resident Officer in Charge of Construction (ROICC) at
Marine Corps Base Quantico in Virginia; Public Works Departments (PWDs) in
Maryland at Annapolis, Bethesda, and Naval Air Station Patuxent River; and PWDs
in Washington  D.C., at Joint Base Anacostia-Bolling, Naval Support Activity South




                                                                                      DODIG-2014-042 │ 1
Introduction



                 Potomac, and Naval Support Activity Washington (Navy Yard). This audit addresses
                 33  firm-fixed-price task orders that contracting officials awarded at five NAVFAC
                 Washington locations. See Appendix C for a list of the task orders reviewed. In addition,
                 we reviewed 25 modifications made to the 33 task orders. See Appendix D for a list of
                 the modifications reviewed.


                 Large and Small Multiple Award Contracts
                 NAVFAC Washington contracting officials awarded two MACs for construction services
                 in FY 2010 and referred to the two MACs as “the large MAC” and “the small MAC.” The
                 large MAC includes five contractors and is for task orders with an estimated value
                 exceeding $10 million. The large MAC has a not-to-exceed ceiling of $750 million.1

                 The small MAC includes five contractors and is for task orders with an estimated
                 valued between $2 million and $10 million. The small MAC has a not-to-exceed ceiling
                 of $500 million.2


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May  30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. NAVFAC Washington
                 internal controls over the award of the 33 task orders and 25  modifications were
                 effective as the internal controls applied to the audit objectives.




                 	1	
                     The five contracts for the large MAC are: N40080-10-D-0490, N40080-10-D-0491, N40080-10-D-0492, N40080-10-D-0493,
                     and N40080-10-D-0494.
                 	2	
                     The five contracts for the small MAC are: N40080-10-D-0495, N40080-10-D-0496, N40080-10-D-0497, N40080-10-D-0498,
                     and N40080-10-D-0302.




2 │ DODIG-2014-042
                                                                                                                                       Finding




Finding
Task Orders Properly Awarded
NAVFAC Washington contracting officials properly awarded the 33 firm-fixed-price task
orders reviewed, valued at $305.6  million (before modifications), from two separate
multiple award contracts. Specifically, NAVFAC Washington contracting officials:

            •	 provided each contractor on the multiple award contract being used with a
                fair opportunity to be considered for the task order award,

            •	 adequately supported price reasonableness determinations on all task orders
                reviewed, and

            •	 used proper funding.

In addition, NAVFAC Washington contracting officials generally supported price
reasonableness determinations for 23  modifications, valued at $14.1  million, of
25  modifications reviewed, valued at $15.1  million. For two modifications, valued at
$1  million, NAVFAC Washington contracting officials either did not prepare or did not
retain adequate documentation supporting price reasonableness determinations.



Contracting Officers Provided Fair Opportunity
to Contractors
NAVFAC Washington contracting officials provided contractors a fair opportunity to be
considered for the 33 task orders. FAR 16.505(b)(1)(i) requires that contracting officers
provide each multiple award contractor a fair opportunity to be considered for each order
exceeding $3,000. Each MAC contained a clause requiring that competition for the task
orders be limited to those awardees in the contract pool. Each MAC pool included five
contractors. For the 33 task orders, we reviewed the number of bids received for each
task order, the time period given to the contractors to submit the bids, and whether the
contracting officials provided sufficient justification for the award.

NAVFAC Washington contracting officers ensured that contractors in the pool were
notified of the solicitation by posting the solicitation to the Navy Electronic Commerce
Online (NECO) website3 and selecting the Commercial and Government Entity Codes4 for

	 3	
    The NECO is an Internet-based system for Navy and business to do electronic commerce. The Navy uses NECO to post
    solicitations; receive secured solicitation responses; and send electronic mail orders, awards and modifications.
	4	
    The Commercial and Government Entity (CAGE) Code identifies companies doing business with or wishing to conduct
    business with the Federal Government. When a contracting officer posts a solicitation to NECO and enters a contractor’s
    Commercial and Government Entity Code, NECO automatically sends the solicitation to the contractor.



                                                                                                                              DODIG-2014-042 │ 3
Finding



                 each contractor in the pool. In addition, a PWD Bethesda contracting officer stated that
                 when she posts a solicitation to the NECO website, she sends each contractor an e‑mail
                 informing them the solicitations were posted. NAVFAC Washington contracting officials
                 provided all five large MAC contractors and all five small MAC contractors in the two pools
                 with a fair opportunity to compete for the task orders.


                 Price Reasonableness Determinations Were Supported
                 NAVFAC Washington contracting officials adequately supported price reasonableness
                 determinations on the 33 task orders using price competition. FAR 15.402(a) requires
                 that contracting officers purchase supplies and services from responsible sources at
                 fair and reasonable prices. FAR  15.404‑1(b)(2)(i) states that comparison of proposed
                 prices received in response to a solicitation is a valid price analysis technique and
                 that, normally, adequate price competition establishes a fair and reasonable price.
                 FAR  15.404-1(b)(2)(v) states that comparison of proposed prices with independent
                 Government cost estimates (IGCEs) is another price analysis technique.            NAVFAC
                 Washington contracting officials received multiple proposals for each task order
                 (5 proposals for 23 of 33 task orders and 4 proposals for 10 of 33 task orders). NAVFAC
                 Washington contracting officials compared the proposed prices received to each other
                 and to the IGCE for the 33  task orders. NAVFAC Washington contracting officials met
                 the FAR requirements for price competition on the 33 task orders.


                 Task Orders Properly Funded
                 NAVFAC Washington officials used proper funding for the 33  task orders. Specifically,
                 they paid for 19  task orders with Operations and Maintenance funds, 10  task orders
                 with Military Construction funds, 3 task orders with Working Capital funds, and 1 task
                 order with Base Realignment and Closure funds. NAVFAC Washington officials used
                 appropriations that were available for obligation during the fiscal year that they awarded
                 the task orders and a type of appropriation that was allowable based on the type of work
                 performed.

                 In addition, NAVFAC Washington officials obtained the required approvals for repair
                 projects expected to cost more than $7.5 million. Specifically, section 2811, title 10,
                 United States Code (10 U.S.C. § 2811) states that for a repair project using Operations and
                 Maintenance funds and expected to cost more than $7.5 million, the Secretary concerned
                 must approve the project in advance and notify Congress. These notifications should
                 include the justification, current estimate, and a description of the elements of military
                 construction for the project. Of the 33  task orders reviewed, 7  task orders, valued at




4 │ DODIG-2014-042
                                                                                                                                            Finding



$85.6  million, were subject to the requirements of 10 U.S.C. § 2811. The Office of the
Assistant Secretary of the Navy (Energy, Installations and Environment)5 approved the
seven projects in advance and sent notifications to congressional committees for each
of those projects.


Price Reasonableness Determinations Generally
Supported on Modifications Reviewed
NAVFAC Washington contracting officials generally supported the price reasonableness
determinations for 23  modifications, valued at $14.1  million, of the 25  modifications
reviewed. FAR 15.402, “Pricing Policy,” states that contracting officers must pay fair and
reasonable prices for supplies and services. Generally, contracting officers analyzed
modification price proposals using techniques including market research, historical price
comparison, and comparison to IGCEs to negotiate the modification price.

For example, ROICC Quantico contracting officials awarded task order N40080-
10‑D‑0494‑0003 modification 1C on December 9, 2011. The modification was to reroute
an electrical duct bank at Marine Corps Base Quantico. Using analysis techniques
such as market research, contracting officials analyzed the proposal and negotiated
a price more than $100,000 less than the originally proposed price.

In another example, PWD Annapolis contracting officials awarded N40080-10-D-0497-
0010 modification 4 on September 29, 2012. That modification was to fulfill the
contractor’s request for equitable adjustment for a Government-caused time delay in
the contractor’s completion of a project to repair and replace terrace deck pavers and
roofing membrane on a terrace deck at the U.S. Naval Academy in Annapolis, Maryland.
Contracting officials analyzed the proposed daily rate and proposed length of time, and
ultimately negotiated a substantial reduction in the daily rate and quantity of proposed
days, resulting in a total price that was $473,790 less than the proposed price.

However, contracting officials did not adequately support the price reasonableness
determinations for two modifications, valued at $1.0 million.

               •	 PWD Navy Yard contracting officials could not provide documentation
                   showing that they conducted a price analysis to support the price
                   reasonableness determination for task order N40080-10-D-0495-0002
                   modification 3, awarded on September 14, 2011, for $556,410.

	 5	
       Although 10 U.S.C. § 2811 states that the Secretary concerned must approve the project and notify Congress, Office of the
       Chief of Naval Operations Instruction 11010.20G delegates this authority to the Assistant Secretary of the Navy (Energy,
       Installations and Environment).




                                                                                                                                   DODIG-2014-042 │ 5
Finding



                         •	 ROICC Quantico contracting officials primarily relied on an IGCE to
                            support the price reasonableness determination for task order N40080-
                            10-D-0490-0001 modification 1K, awarded on January 16, 2013, for
                            $500,654.    Specifically, the Navy Civil Engineering Corps construction
                            manager stated that because of time constraints, she did not develop an
                            in-depth Government estimate; instead, she prepared only a rough estimate.

                 We informed NAVFAC Washington contracting officials of those two instances. Those
                 instances were isolated and did not constitute a systemic problem. Therefore we are not
                 making any recommendations.




6 │ DODIG-2014-042
                                                                                             Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit, from March 2013 through February 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Because of budgetary considerations, we limited this audit to review contracts awarded
in the Washington, D.C., area. Specifically, we reviewed a large MAC and a small MAC for
construction services awarded by NAVFAC Washington in FY 2010. Each MAC consisted
of five contracts, indicated in the following table.

Table A. List of Contracts for MACs
            Contracts for Large MAC                     Contracts for Small MAC
              N40080-10-D-0490                             N40080-10-D-0495
              N40080-10-D-0491                             N40080-10-D-0496
              N40080-10-D-0492                             N40080-10-D-0497
              N40080-10-D-0493                             N40080-10-D-0498
              N40080-10-D-0494                             N40080-10-D-0302


From the two MACs, we selected a nonstatistical sample of 33  firm-fixed-price task
orders from the total of 96  task orders, valued at $508.4  million, awarded between
December 30, 2009, and March 31, 2013. See Appendix C for a list of task orders reviewed.
We collected, reviewed, and analyzed documents on those 33  task orders, valued at
$305.6 million before modification. We reviewed pre-award documentation in the task
order files, including request for proposals, proposals, no-bid letters, price negotiation
memorandums, business clearance memorandums, and IGCEs.               We also reviewed
scopes of work, commitment requests, Office of the Assistant Secretary of the Navy
(Energy, Installations and Environment) approvals, and Congressional notifications.

We also selected a nonstatistical sample of 25  modifications, valued at $15.1  million,
from the 246  modifications, valued at $47 million, made to those 33  task orders as of
March 31, 2013. To determine whether contracting officials adequately supported price
reasonableness determinations for the modifications, we reviewed documentation




                                                                                         DODIG-2014-042 │ 7
Appendixes



                 including   proposals,     price   negotiation   memorandums,        business    clearance
                 memorandums, and IGCEs. See Appendix D for a list of the modifications reviewed.

                 We reviewed task order and modification files and interviewed contracting personnel at
                 the following locations:

                          •	 NAVFAC Washington, Washington Navy Yard, Washington, D.C.;

                          •	 PWD, Washington Navy Yard, Washington, D.C.;

                          •	 PWD, Annapolis, Maryland;

                          •	 PWD, Bethesda, Maryland; and

                          •	 ROICC, Quantico, Virginia.

                 We reviewed documentation dated from February 1999 to January 2014. We used the
                 following criteria to perform the audit:

                          •	 FAR Subpart 15.4, “Contract Pricing,” prescribes the cost and price negotiation
                             policies and procedures for pricing negotiated prime contracts (including
                             subcontracts) and contract modifications, including modifications to contracts
                             awarded by sealed bidding.

                          •	 FAR Subpart 16.5, “Indefinite Delivery Contracts,” prescribes the policies and
                             procedures for making awards of indefinite-delivery contracts and establishes
                             a preference for making multiple awards of indefinite-quantity contracts.

                          •	 FAR Subpart 36.2, “Special Aspects of Contracting for Construction,”
                             Paragraph  36.203(a), requires an independent Government estimate of
                             construction costs to be prepared and furnished to the contracting officer
                             for each proposed contract and for each contract modification anticipated
                             to exceed the simplified acquisition threshold.

                          •	 Defense Finance and Accounting Services Manual 7097.01, “Financial
                             Management Reporting Manual for the Office of the Secretary of Defense
                             Appropriations,” provides standard data elements, descriptions, and a
                             standard coding structure to be used for funds control and distribution.

                          •	 DoD Financial Management Regulation, Volume 2A, Chapter 1, defines the
                             fiscal year, the normal life cycle of appropriations, and provides guidance
                             on determining expenses versus investment.




8 │ DODIG-2014-042
                                                                                             Appendixes



         •	 Office of the Chief of Naval Operations Instruction 11010.20G, “Facilities
           Project Instruction,” provides policy and guidance for the classification,
           preparation, submission, review, approval, and reporting of facilities projects
           at Navy shore installations to include the type of funds to use.

         •	 10 U.S.C. 2811, “Repair of facilities,” requires Secretary approval and
           congressional notification for repair projects with an estimated cost of more
           than $7.5 million that are funded with Operations and Maintenance funds.


Use of Computer-Processed Data
We used computer-processed data from two databases to identify the universe of
contracts and task orders to review—the Federal Procurement Data System-Next
Generation and the Electronic Document Access System.             We ran queries using
both systems to identify MACs awarded by NAVFAC Washington and selected a
nonstatistical sample of task orders for review.

We used the data only to identify which task orders to review. Once we identified
the task orders that matched our criteria, we selected the nonstatistical sample and
compared the contract file documentation to the electronic database information.
From this review, we determined that the data were sufficiently reliable to support
the audit conclusions.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.




                                                                                         DODIG-2014-042 │ 9
Appendixes




                 Appendix B
                 Prior Coverage
                 During the last 5  years, the Department of Defense Inspector General (DoD IG), the
                 Army Audit Agency (AAA), and the Air Force Audit Agency (AFAA), issued 11  reports
                 discussing fair opportunity to compete and price reasonableness determinations for the
                 award of construction contracts or MACs for services. Unrestricted DoD IG reports can
                 be accessed at http://www.dodig.mil/pubs/index.cfm. Unrestricted Army reports can be
                 accessed from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.
                 Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
                 https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
                 Common Access Cards.


                 DoD IG
                 Report No. DODIG-2013-121, “Award and Administration of Multiple-Award Contracts at
                 Joint Base San Antonio-Lackland Need Improvement,” August 23, 2013

                 Report No. DODIG-2013-007, “Award and Administration of Multiple Award Contracts
                 at Naval Facilities Engineering Command Specialty Centers Need Improvement,”
                 October 26, 2012

                 Report No. DODIG-2012-033, “Award and Administration of Multiple Award Contracts
                 for Services at U.S. Army Medical Research Acquisition Activity Need Improvement,”
                 December 21, 2011


                 Army
                 Report No. A-2012-0019-IEI, “Military Construction Contract U.S. Army Corps of
                 Engineers Sacramento District, 212th Fires Brigade Headquarters Building, Fort Bliss,
                 Texas,” November 15, 2011

                 Report No. A-2012-0005-IEI, “Military Construction Contract U.S. Army Corps of
                 Engineers Fort Worth District, Unaccompanied Enlisted Personnel Housing for
                 Brigade Combat Teams 1, 2, and 3, Fort Bliss, Texas,” October 21, 2011

                 Report No. A-2011-0205-IEI, “Military Construction Contract U.S. Army Corps of
                 Engineers Fort Worth District, Combat Aviation Brigade Unaccompanied Enlisted
                 Personnel Housing, Fort Bliss, Texas,” September 15, 2011




10 │ DODIG-2014-042
                                                                                         Appendixes



Report No. A-2011-0191-IEI, “Military Construction Contract U.S. Army Corps of
Engineers Albuquerque District, Brigade Combat Teams 1, 2, and 3 Company Operations
Facilities, Fort Bliss, Texas,” September 14, 2011

Report No. A-2011-0172-IEI, “Military Construction Contract U.S. Army Corps of
Engineers Sacramento District, Brigade Combat Teams 1, 2, and 3 Headquarters
Buildings, Fort Bliss, Texas,” August 30, 2011

Report No. A-2011-0170-IEI, “Military Construction Contract Infantry Brigade Combat
Teams 1 and 2, Unaccompanied Enlisted Personnel Housing, Fort Bliss, Texas,”
August 26, 2011

Report No. A-2011-0166-IEI, “Military Construction Contracts U.S. Army Corps
of Engineers Savannah District, U.S. Army Armor School, Fort Benning, Georgia,”
July 28, 2011


Air Force
Report No. F2011-0008-FC1000, “Multiple-Award Indefinite Delivery Indefinite Quantity
Contracts at the Air Logistics Centers,” August 13, 2011




                                                                                    DODIG-2014-042 │ 11
Appendixes




                 Appendix C
                 Task Orders Reviewed
                 We reviewed 33  firm-fixed-price task orders awarded under the large MAC and the
                 small MAC. NAVFAC Washington can procure repairs, renovations, new construction
                 and alterations to shore facilities, and utilities belonging to the Government at any
                 NAVFAC location in the continental United States under the two MACs.                              The
                 33  task orders we reviewed were for construction projects in Washington, D.C.;
                 Maryland; and Virginia. The large MAC has a not-to-exceed ceiling of $750  million.
                 The small MAC has a not-to-exceed ceiling of $500 million.

                                                  Initial Award
                                                     Amount
                                                     (Figures                                           Awarding
                              Task Order            Rounded)             Services Purchased              Office

                      Large MAC Task Orders

                      1) N40080-10-D-0490-0001     $15,478,820      Design and construct an            NAVFAC
                                                                    Officer Candidate School           Washington
                                                                    Mess Hall and a Headquarters
                                                                    Facility at Marine Corps Base
                                                                    Quantico
                      2) N40080-10-D-0490-0002       15,777,700     Construct an approximately         NAVFAC
                                                                    60,000 square-foot expansion       Washington
                                                                    to the Ballistic Missile Defense
                                                                    Aegis program management
                                                                    facility, Dahlgren, Virginia
                      3) N40080-10-D-0490-0003       11,978,000     Provide 22,600 square feet of      NAVFAC
                                                                    administrative and operations      Washington
                                                                    space for Joint Air Defense
                                                                    Operations Mission at Joint
                                                                    Base Anacostia-Bolling
                      4) N40080-10-D-0492-0002       11,650,000     Modify areas of the Halsey         PWD
                                                                    Field House at the U.S. Naval      Annapolis
                                                                    Academy, Annapolis
                      5) N40080-10-D-0492-0003       15,505,000     Renovate Buildings 3 and 5,        NAVFAC
                                                                    WRNMMC*                            Washington
                      6) N40080-10-D-0492-0004        5,880,000     Modernize Central                  NAVFAC
                                                                    Distribution and Sterile           Washington
                                                                    Processing Departments,
                                                                    Building 9, WRNMMC
                      7) N40080-10-D-0492-0005       13,925,000     Repair Building Envelopment,       NAVFAC
                                                                    Buildings 60 and 61, Naval         Washington
                                                                    Support Activity, WRNMMC
                      8) N40080-10-D-0492-0006       20,325,000     Renovate Building 9 at Federal     NAVFAC
                                                                    Bureau of Investigations           Washington
                                                                    Academy, Marine Corps Base
                                                                    Quantico
                 Acronyms used throughout Appendix C are defined on the final page of Appendix C



12 │ DODIG-2014-042
                                                                                                        Appendixes



Task Orders Reviewed (cont’d)
                                 Initial Award
                                    Amount
                                    (Figures                                           Awarding
         Task Order                Rounded)              Services Purchased             Office
 9) N40080-10-D-0493-0002            5,796,969     Design and construct a             NAVFAC
                                                   15,000 square-foot addition        Washington
                                                   to noncommissioned officers
                                                   training facility, Marine Corps
                                                   Base Quantico
 10) N40080-10-D-0494-0002          12,110,643     Design and construct               NAVFAC
                                                   Research, Development,             Washington
                                                   Test, and Evaluation facilities,
                                                   Naval Surface Warfare Center,
                                                   Bethesda
 11) N40080-10-D-0494-0003           9,445,000     Construct a power substation       NAVFAC
                                                   at Marine Corps Base               Washington
                                                   Quantico
 12) N40080-10-D-0494-0004          11,748,519     Restore and modernize              NAVFAC
                                                   building W111 at the               Washington
                                                   Washington Navy Yard
 13) N40080-10-D-0494-0005          14,200,000     Construct and renovate             NAVFAC
                                                   Child Care Facility and Child      Washington
                                                   Development Centers at Naval
                                                   Support Activity, Bethesda
 14) N40080-10-D-0494-0006           8,650,000     Repair and modernize               PWD
                                                   Administration Building at U.S.    Annapolis
                                                   Naval Academy, Annapolis
 15) N40080-10-D-0494-0007          21,575,006     Modernize galley and dining        NAVFAC
                                                   area, building 9 at WRNMMC         Washington
 16) N40080-10-D-0494-0008          33,842,000     Construct a multi-story            NAVFAC
                                                   bachelor enlisted quarters         Washington
                                                   and an enlisted dining facility,
                                                   Marine Corps Base Quantico
  Sub-Total                      $227,887,657
 Small MAC Task Orders
 17) N40080-10-D-0495-0002           6,733,821     Renovate building 220 at           PWD Navy
                                                   Washington Navy Yard               Yard
 18) N40080-10-D-0495-0005           3,871,601     Replace windows, patio, and        ROICC
                                                   copper gutter and gutter line      Quantico
                                                   at Harry Lee Hall Building 17,
                                                   Marine Corps Base Quantico
 19) N40080-10-D-0495-0008           1,265,000     Repair classrooms and              PWD
                                                   laboratories at Rickover Hall,     Annapolis
                                                   U.S. Naval Academy, Annapolis
 20) N40080-10-D-0496-0002           3,641,229     Repair building 2002 at            ROICC
                                                   Marine Corps Base Quantico         Quantico
 21) N40080-10-D-0496-0007           5,168,728     Repair Building 54 and 55 and      PWD
                                                   waterproofing at WRNMMC            Bethesda
Acronyms used throughout Appendix C are defined on the final page of Appendix C



                                                                                                   DODIG-2014-042 │ 13
Appendixes



                 Task Orders Reviewed (cont’d)
                                                  Initial Award
                                                     Amount
                                                     (Figures                                       Awarding
                               Task Order           Rounded)            Services Purchased           Office
                      22) N40080-10-D-0496-0009      6,092,453    Repair the Mainside sewage       NAVFAC
                                                                  treatment plant at Marine        Washington
                                                                  Corps Base Quantico
                      23) N40080-10-D-0496-0019      5,577,010    Repair various waterfront        PWD
                                                                  structures at U.S. Naval         Annapolis
                                                                  Academy, Annapolis
                      24) N40080-10-D-0497-0010      4,161,437    Repair terrace deck pavers       PWD
                                                                  and roofing at Rickover/         Annapolis
                                                                  Nimitz, at U.S. Naval Academy,
                                                                  Annapolis
                      25) N40080-10-D-0497-0011      5,823,375    Realign Purvis/Russell Road      NAVFAC
                                                                  Phase II, Marine Corps Base      Washington
                                                                  Quantico
                      26) N40080-10-D-0497-0012      6,357,522    Repair building 3280, Marine     ROICC
                                                                  Corps Base Quantico              Quantico
                      27) N40080-10-D-0497-0017      1,531,300    Replace window systems of        PWD Navy
                                                                  Building 22 at Washington        Yard
                                                                  Navy Yard
                      28) N40080-10-D-0498-0007      5,312,000    Renovation for new               PWD Navy
                                                                  accelerator in Building          Yard
                                                                  A69 of the Naval Research
                                                                  Laboratory, Washington, D.C.
                      29) N40080-10-D-0498-0012      3,177,600    Modernize Bulk Transport         PWD
                                                                  System at WRNNMC                 Bethesda
                      30) N40080-10-D-0498-0017      8,349,000    Renovate Visiting Flags          NAVFAC
                                                                  Officers Quarters, Building 2,   Washington
                                                                  at Washington Navy Yard
                      31) N40080-10-D-0302-0008      4,168,000    Replace the Armed Forces         PWD
                                                                  Radiobiology Research            Bethesda
                                                                  Institute Switchgear at the
                                                                  Uniformed Services University
                                                                  of the Health Services,
                                                                  WRNMMC
                      32) N40080-10-D-0302-0012      3,090,000    Restore office and laboratory    NAVFAC
                                                                  space Building A-50 and repair   Washington
                                                                  the extensive damage from
                                                                  a roof fire at Naval Research
                                                                  Laboratory, Washington, D.C.
                      33) N40080-10-D-0302-0015      3,382,000    Renovate the Command             PWD
                                                                  Suite, Building 1, 5th Deck,     Bethesda
                                                                  WRNMMC
                       Sub-Total                   $77,702,076
                       Total                      $305,589,733

                 *WRNMMC Walter Reed National Military Medical Center, Bethesda, Maryland (formerly National
                 Naval Medical Center)



14 │ DODIG-2014-042
                                                                                            Appendixes



Appendix D
Modifications Reviewed
We reviewed 25 modifications, totaling $15.1 million, awarded under the 33 task orders
we reviewed.

                                                Award Amount
          Task Order           Modification    (figures rounded)     Awarding Office
 Large MAC Modifications
 1) N40080-10-D-0490-0001           1K             $500,654        ROICC Quantico
 2) N40080-10-D-0492-0002           1J               730,000       PWD Annapolis
 3) N40080-10-D-0492-0003           1J             3,900,000       PWD Bethesda
 5) N40080-10-D-0492-0004           1P               539,371       PWD Bethesda
 4) N40080-10-D-0492-0004           1Z               280,166       PWD Bethesda
 6) N40080-10-D-0492-0005           1D             1,171,899       PWD Bethesda
 7) N40080-10-D-0492-0005           1H               274,198       PWD Bethesda
 8) N40080-10-D-0493-0002           1A               295,113       ROICC Quantico
 9) N40080-10-D-0494-0002           3                318,101       PWD Navy Yard
 11) N40080-10-D-0494-0003          1C               454,841       ROICC Quantico
 10) N40080-10-D-0494-0003          1H               561,500       ROICC Quantico
 12) N40080-10-D-0494-0004          1E               272,916       PWD Navy Yard
  Sub-Total                                       $9,298,759
 Small MAC Modifications
 13) N40080-10-D-0495-0002          3                556,410       PWD Navy Yard
 14) N40080-10-D-0495-0005          3                375,639       ROICC Quantico
 15) N40080-10-D-0496-0002          1A               250,000       ROICC Quantico
 17) N40080-10-D-0496-0007          3                501,298       PWD Bethesda
 16) N40080-10-D-0496-0007          6                279,186       PWD Bethesda
 19) N40080-10-D-0496-0009          1A               353,583       ROICC Quantico
 18) N40080-10-D-0496-0009          1C             1,401,306       ROICC Quantico
 21) N40080-10-D-0497-0010          3                308,930       PWD Annapolis
 20) N40080-10-D-0497-0010          4                388,806       PWD Annapolis
 22) N40080-10-D-0498-0007          3                297,740       PWD Navy Yard
 23) N40080-10-D-0498-0017          6                408,339       NAVFAC Washington
 24) N40080-10-D-0302-0008          2                386,044       PWD Bethesda
 25) N40080-10-D-0302-0015          3                320,000       PWD Bethesda
  Sub-Total                                       $5,827,281
  Total                                         $15,126,040

                                                                                       DODIG-2014-042 │ 15
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                         FAR Federal Acquisition Regulation
                         IGCE Independent Government Cost Estimate
                        MAC Multiple Award Contract
                      NAVFAC Naval Facilities Engineering Command
                        NECO Navy Electronic Commerce Online
                        PWD Public Works Department
                       ROICC Resident Officer in Charge of Construction




16 │ DODIG-2014-042
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
